May 27, 2010

ROBERT F. BERNSTOCK
PRESIDENT, MAILING AND SHIPPING SERVICES

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: Audit Report – U.S. Postal Service’s Use of Employees in
         Rehabilitation Status (Report Number HR-AR-10-002)

This report presents the results of our audit of the U.S. Postal Service’s use of
rehabilitation status employees (Project Number 10YG003HM000). Our objective was to
evaluate whether Postal Service employees in rehabilitation status can perform contract
call center work. The deputy postmaster general requested the audit, which addresses
operational risk. See Appendix A for additional information about this audit.

The Postal Service has a legal responsibility to employees with job-related disabilities.
The National Reassessment Process is a key Postal Service initiative for finding
appropriate and productive assignments for employees who experience on-the-job
injuries, and are covered under the Workers’ Compensation program. Management
provides a rehabilitation assignment when the effects of an injury are considered
permanent and the employee has reached Maximum Medical Improvement (MMI). 1
Under rehabilitation assignments, employees can complete work outside of their craft
and work facility.

In the late 1990s, the Postal Service established a centralized corporate call
management approach for corporate programs and local initiatives, to improve
customer satisfaction and provide opportunities to grow additional revenue. As a result,
all calls went to a unified call center. In 2003, the Postal Service entered into a fixed
price incentive agreement with Convergys for contact call center support. The Postal
Service currently has a successful in-sourcing pilot program in Detroit staffed by
rehabilitated employees who have reached MMI status. See Appendix A for additional
background information.




1
    According to the employee’s treating physician, the employee is unlikely to recover further.
U.S. Postal Service’s Use of Employees in                                                            HR-AR-10-002
 Rehabilitation Status



Conclusion

The Postal Service has spent, on average, $71 million per year contracting out for call
center work that employees in rehabilitation status could perform. The Postal Service
could realize cost savings of approximately $349 million over 10 years if they in-sourced
contract call center work utilizing Postal Service employees in rehabilitation status. 2

Outsourcing Call Center Work

The Postal Service has spent, on average, $71 million per year contracting out for call
center work that employees in rehabilitation status could perform. The Postal Service
currently has an in-sourcing pilot program in Detroit staffed by rehabilitated employees
who have reached MMI status. A senior Postal Service official stated that he agrees the
Detroit Customer Care Center (CCC) demonstrates that properly trained and managed
in-source agents can handle incoming customer calls. However, the Postal Service and
the American Postal Workers Union (APWU)3 have not reached an agreement
regarding how the call centers will be staffed.4 In addition, the Postal Service has not
established a plan to expand the Detroit pilot. We estimated the Postal Service could
realize a cost savings of approximately $349 million over 10 years if they eliminate the
call center contract and staff call centers with Postal Service employees in rehabilitation
status.5 See Appendix B for our detailed analysis of this topic.

We recommend the president, Mailing and Shipping Services, require Postal Service
officials at Customer Contract Solutions to:

1. Establish a plan to in-source all call center work, including a staffing and training
   plan.

We recommend the vice president, Labor Relations:

2. Expedite negotiations and finalize an agreement with the American Postal Workers
   Union that addresses staffing for in-sourced call center work.




2
  This savings is based on the Postal Service staffing call centers with all rehabilitation employees. According to
management, there are other scenarios the Postal Service may negotiate with the unions that could include a
percentage of preferred bid jobs for the call center work; in which case, the potential savings could be lower.
3
  The APWU represents 250,000 clerks in post offices across the U.S.
4
  These negotiations have been ongoing for more than 14 years. However, according to Postal Service officials, they
have made progress regarding these negotiations and they are working on the percentage of bid versus non-bid
positions that will be used to staff the call centers.
5
  The Postal Service will have to establish an appropriate infrastructure and train 893 employees to prepare to in-
source all call center work by the end of the last option period of the current contract (January 2013). As they
implement the call center infrastructure and train employees, the Postal Service may be able to reduce the size and
scope of the current contract in phases for upcoming option periods and realize additional savings.




                                                         2
U.S. Postal Service’s Use of Employees in                                      HR-AR-10-002
 Rehabilitation Status



Management’s Comments

Management agreed with both recommendations, stating that they would develop a full
plan to in-source call center work, including detailed cost estimates and a timeline of
activities. With regard to expediting negotiations with the unions, management stated
they recognize the potential benefits of in-sourcing certain call center work to
rehabilitation employees; however, this requires reaching an agreement with the APWU,
as it cannot in-source work unilaterally. Discussions with the APWU about this type of
agreement, which predate the U.S. Postal Service Office of Inspector General (OIG)
audit, are continuing.

Management only agreed with $10.8 million of the $349 million cost savings identified in
the audit report, stating that the audit does not include significant operating costs for
items such as call monitoring and management; manager and supervisor salaries; non-
injured craft employees’ salaries in preferred assignments; IVR support; technology;
and reporting costs. They also stated it is uncertain what percentage of rehabilitation
employees will be negotiated in the contract with the union and savings will depend on
the extent to which they can use rehabilitation employees. Management presented a
financial summary with an eight-year analysis period with four cash flow scenarios. In
addition, management stated that the current contract cost is $67.1 million, not the $71
million used in the calculation. See Appendix D for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
their corrective actions should resolve the issues identified in the report. Regarding the
monetary impact, management used different methodologies in their analysis of
potential cost savings, including an eight year analysis period and several possible
scenarios that the OIG did not consider in assessing whether employees in
rehabilitation status could perform call center work.

We used a conservative approach to estimate the cost savings, taking into
consideration the supplemental information provided by management regarding start-up
costs and operating expenses including facility costs, IVR support, hardware,
telephones, computers and technical support.

There may be various possible scenarios with regard to the union negotiations;
however, we conducted this audit to show what the Postal Service could save if they
used employees in rehabilitation status. Thus, we did not include human resources
costs in our analysis. Even with the various scenarios presented by management, we
do not believe that a plan to in-source call centers would require additional hiring,
because current Postal Service staffing has not declined commensurate with the
significant decline in mail volume.




                                             3
U.S. Postal Service’s Use of Employees in                                    HR-AR-10-002
 Rehabilitation Status



Regarding contract costs, these costs have varied in past years. Thus, we used an
average cost of $71 million per year based on what the Postal Service has actually
spent in the past 3 years on this contract. We subtracted the operating costs provided
by management, from that amount to calculate the potential savings. We used a 10-
year period in our calculations based on the contract period.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Capital and Security, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony Vegliante
    Susan M. Plonkey
    Joseph K. Adams
    Donald J. Nichols
    Alan J. Krytusa
    Kelvin Mack
    Sally K. Haring




                                            4
U.S. Postal Service’s Use of Employees in                                      HR-AR-10-002
 Rehabilitation Status



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has a legal responsibility to employees with job-related disabilities.
Providing gainful employment within medically defined work restrictions has proven to
be in the best interest of both employees and the Postal Service. In many cases
returning to work has helped employees reach maximum recovery.

The National Reassessment Process is a key Postal Service initiative for finding
appropriate and productive assignments for employees who experience on-the-job
injuries and are covered under the Workers’ Compensation program. The process helps
evaluators re-examine the status of employees in rehabilitation assignments, ensuring
that every evaluated employee has the opportunity to return to work where appropriate.

Management provides a rehabilitation assignment when the effects of the injury are
considered permanent and the employee has reached MMI. As with limited duty
assignments, management reviews all rehabilitation jobs to determine if employees are
properly placed in duty assignments. Under rehabilitation assignments, employees can
complete work outside of their craft and work facility.

In February 1995, a team of industry and Postal Service experts were commissioned to
map the Corporate Call Management vision by studying current Postal Service
telephone handling procedures. They recommended consolidating the Postal Service’s
281 1-800 numbers, corporate programs, and local initiatives into one centralized
corporate call management approach to improve customer satisfaction and provide
opportunities to grow additional revenue.

In the late 1990s, all calls went to a unified call center staffed by Postal Service
employees, 6 and in 2003, the Postal Service awarded Convergys the call center
contract. When the Postal Service decided to outsource call center activities, the union
was against outsourcing at the national level and supported in-sourcing efforts. A senior
Postal Service official stated the APWU 7 believes that every preferred union assignment
should be a bid assignment. 8 Management stated they are uncertain what percentage
of rehabilitation employees will be negotiated in the contract with the union.

The Postal Service entered into a fixed price incentive agreement with Convergys on
February 1, 2003, for contact center support. The contact center has a “one-call-does-it
all” philosophy which provides a centralized channel for Postal Service customers. The
contract is a 4-year base contract with six 1-year renewal options. The Postal Service


6
  These were not employees in rehab status.
7
  The APWU represents 250,000 clerks in post offices across the U.S.
8
  Posted duty assignments for which only bargaining employees can apply.




                                                       5
U.S. Postal Service’s Use of Employees in                                        HR-AR-10-002
 Rehabilitation Status


has two 1-year renewal options left on the Convergys contract and if they exercise
those option periods, the contract will expire January 31, 2013.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate whether Postal Service employees in rehabilitation status
could perform contract call center work.

To accomplish our objective, we interviewed the manager, Health and Resources
Management, to obtain an understanding of how the Postal Service defines and assigns
limited duty and rehabilitation status employees. To determine the number of
employees in limited duty and rehabilitation assignments during fiscal years (FY) 2006
through 2009, we analyzed data from each Postal Service district. We reviewed the
Postal Service’s Employee and Labor Relations Manual, Section 546, covering
employees in limited duty and rehabilitation assignments. We interviewed the manager
of In-Sourcing Programs to discuss Detroit CCC pilot program operations, training,
agent assignments, call types serviced, schedules, and the possibilities of call center
expansion. To assess call center operations, we visited the Detroit CCC. We
interviewed the manager to gain an understanding of call center operations, call types
and assignments, call tracking, and agent productivity. In addition, we identified the
number of agents and agent assignments.

We also interviewed the manager, Contract Administration, Labor Relations, regarding
arbitration that was put on hold. We interviewed officials from Corporate Customer
Care, Customer Contact Solutions, the Convergys’ contracting officer, and the
contracting officer representative to obtain information relating to contract re-negotiation
penalties; call type training to reduce contractor complement; and steps required to
eliminate contract call center operations.

We conducted this performance audit from October 2009 through May 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 23, 2010, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              6
U.S. Postal Service’s Use of Employees in                                                               HR-AR-10-002
 Rehabilitation Status


                                 APPENDIX B: DETAILED ANALYSIS

Outsourcing Call Center Work

The Postal Service has spent, on average, $71 million per year contracting out for call
center work that employees in rehabilitation status could perform. Our audit concluded
that the Postal Service could realize significant cost savings if they in-source contract
call center work using employees in rehabilitation status. While Postal Service officials
stated they have made progress in negotiations with the union regarding how the in-
sourced call centers would be staffed, the Postal Service has been in negotiations with
the union for more than 14 years. 9 Based on the financial difficulties the Postal Service
is experiencing, it is critical that they find ways to reduce costs and realize efficiencies in
their operations. Using existing employees in rehabilitation status to perform contract
call center work would result in a savings of approximately $349 million over a 10-year
period beginning in 2013. They could potentially realize additional savings if they reduce
the current contract in phases in the upcoming option years, as they establish the
infrastructure and train Postal Service employees to perform call center duties.

Rehabilitation Employees

Management provides a rehabilitation assignment when the effects of an injury on an
employee are considered permanent and/or the employee has reached MMI.
Rehabilitation assignments vary by district. Wherever the National Reassessment
Program has been implemented and assignments have been made, the assignment is
necessary and within the medical restrictions of the assigned employee.

We noted during our audit that the Postal Service had 15,979 employees on
rehabilitation assignments in the nine Postal Service areas. According to Postal Service
officials, approximately 4,800 (or 30 percent) of the rehabilitation employees did not
have work (see table below).




9
  There is question as to how the call centers will be staffed and the percentage of bid versus non-bid positions the
Postal Service will use.




                                                           7
U.S. Postal Service’s Use of Employees in                                                                   HR-AR-10-002
 Rehabilitation Status




  *As of this report date, Postal Service has eight areas. The former Postal Service districts (excluding the
  Caribbean District) within New York Metro Area are now part of the Northeast Area.



Detroit In-Sourcing Pilot

The in-sourced call center in Detroit is a pilot program that started in March 2007. The
center currently has 77 agent assignments and handled over 1.8 million calls in 2009.
The injured-on-duty (IOD) employees at MMI working in Detroit as call agents are from
the three major craft unions and include carriers, clerks, and mail handlers. The center
operates 6 days per week, Monday through Saturday.

The operation has been engineered to maximize ease of use for the IOD call agents
interacting with inquiring customers. While navigating Interactive Voice Response
(IVR), 10 the customer selects one of the five pilot center categories and a pilot center
call agent responds to customer concerns. The agents respond to customers using a
desktop response system that accesses usps.com (the Postal Service’s website). The
call categories available for customer response are: ZIP Codes, Domestic Rates, Hold
Mail, Redelivery, and Passports.

The Detroit CCC has served as an effective and successful proof of concept test site for
in-sourcing call centers. It currently provides productive work for 80 long-term


10
   All call centers (in-sourced/out-sourced) will use IVR. The IVR is for all Postal Service telecommunications support,
including external-facing call centers and internal-facing employees call center activity.




                                                             8
U.S. Postal Service’s Use of Employees in                                                          HR-AR-10-002
 Rehabilitation Status


 IOD employees serving as in-sourced call center agents. Since March 2007, the pilot
has handled more than 5 million customer inquiries and has performed better than the
service performance target in every year of its operation.11

However, despite its success, the Postal Service has not reached agreement with the
union regarding how it will staff the call centers. In addition, the Postal Service has not
established a plan to expand the Detroit pilot. The Strength, Weaknesses,
Opportunities, and Threats (SWOT)12 analysis for the call center as performed by
Supply Management’s Category Management Center, Professional Printing and
Creative Services suggests the Postal Service should in-source with “rehab”
employees.

Convergys Contract

The Postal Service has two 1-year renewal options left on the Convergys contract. The
current contract base is set for 975,000 calls per month, based on the recent negotiated
option year agreement. The 975,000 base level contract cost is $4.175 million per
month, or roughly $50 million per year. If the contractor answers more than 975,000
calls there is a cost of between 50 cents and 80 cents per call depending on the call
volume over the base. Management stated they negotiated a new contract amount of
$67.1 million for the period ending January 31, 2011; however, this amount could vary
depending on call volume.

The contract currently consists of five contract centers employing approximately 893
agents who handled over 51 million calls in 2009. Four of the five contact centers are
outsourced, while Postal Service employees source the fifth (Detroit CCC).

In-Sourcing Effort

Postal Service officials stated they could eliminate the current contract starting in
February 2011 without penalties. However, the biggest challenges for in-sourcing will be
the information technology portion of the implementation effort, including obtaining
software licenses. Currently, calls go through the contractor’s IVR. The Postal Service is
in the process of procuring an IVR and installing a desktop system and other items in
support of other telecommunication needs. These items can also support the in-house
call center operation. Management expects it will complete the desktop system by the
end of FY 2010 and should complete procurement of the IVR by the end of FY 2011.13


11
   The service performance target for postal call center performance is 80 percent answered in 40 seconds or less.
However, the Detroit CCC’s success is based on handling five call types compared to the 25 or more call types
handled by the contractor.
12
   SWOT analysis is part of the Commodity Sourcing Strategy Plan (CSSP) developed by Supply Management
Category Management Center managers. The CSSP for the call center was done on May 31, 2007.
13
   Management stated they have purchased the desktop system and are in the process of reviewing proposals for the
IVR. Also, management stated they may need to contract out for some telecommunication services and technological
support. These details will be included in the DAR.




                                                        9
U.S. Postal Service’s Use of Employees in                                                               HR-AR-10-002
 Rehabilitation Status


In addition, the Postal Service will need to train 893 rehabilitation employees (including
clerks)14 to eliminate contract staff at the four contract centers. Management estimates
it will take approximately 18 to 24 months to train 893 employees (at an estimated cost
of $3,100 to $5,00015 per employee) and establish the infrastructure required to
establish the call centers. In addition, management stated the technical support services
for the Internet CCC and support for customers using usps.com related products would
need to be contracted out at an estimated cost of $2.2 million annually. Further, they
mentioned there are considerations regarding absenteeism for rehabilitation employees
to ensure they are accommodated for health and injury issues.




14
   The Postal Service has rehabilitation status employees that include craft and supervisors positions. Crafts positions
are clerks, mail handlers, and carriers represented by major Postal Service unions. Arbitration between the Postal
Service Labor Relations and the APWU is, in part, to ensure the clerk craft has bid positions for call center work.
Management stated they are uncertain of whether an agreement will be reached and, if so, what percentage of
rehabilitation employees will be in the agreement.
15
   This includes 3 weeks of training (2 weeks of training and 1 week of closely supervising trainees on the calling
center floor). Some outside contractors would also be required to train the employees.




                                                          10
                 U.S. Postal Service’s Use of Employees in                                                                                  HR-AR-10-002
                  Rehabilitation Status


                                                          APPENDIX C: MONETARY IMPACTS


                                                                     FUNDS PUT TO BETTER USE16
                         2011            2012           2013            2014            2015           2016           2017           2018           2019           2020
Change in
Call Center
                                $0              $0    $71,414,826     $71,414,826    $71,414,826    $71,414,826    $71,414,826    $71,414,826    $71,414,826    $71,414,826
Contract
Value

Training and
                      ($25,071,902)    ($406,480)      ($406,480)      ($406,480)     ($406,480)     ($406,480)     ($406,480)     ($406,480)     ($406,480)     ($406,480)
Infrastructure

Utility and
Custodial               ($419,782)     ($425,074)      ($430,433)      ($435,859)     ($441,354)     ($446,918)     ($452,553)     ($458,258)     ($464,035)     ($469,886)
Costs

Technical
Support
Service for            ($2,268,266)   ($2,313,631)    ($2,359,904)    ($2,407,102)   ($2,455,244)   ($2,504,349)   ($2,554,436)   ($2,605,524)   ($2,657,635)   ($2,710,788)
Specialized
Calls Cost

Total                 ($27,759,950)   ($3,145,185)    $68,218,009     $68,165,385    $68,111,748    $68,057,079    $68,001,357    $67,944,563    $67,886,676    $67,827,672

Discounted
                      ($27,759,950)   ($2,939,426)   ($59,584,251)   ($55,643,259)   $51,962,126    $48,523,757    $45,312,175    $42,312,459    $39,510,663    $36,893,759
Total

Present
                      $349,043,074
Value



                        The average Convergys contract cost for FYs 2006 through 2009 was
                         $71,414,826.17

                        Calendar year 2011 shows the estimated start-up infrastructure and training costs
                         for 893 employees to be $25,071,902. This includes costs for training, IVR, software
                         licenses, facilities, furniture, telephone equipment, and desktop requirements.

                        The training and infrastructure costs are taking place in tandem with the current
                         contracted call center effort. The average training cost per employee is $5,000. The
                         training shown in calendar years 2012 through 2020 represents the ongoing training
                         effort based on attrition rate of 9.1037 percent.

                        The utility and custodial costs are for the proposed four Postal Service call center
                         sites at the following locations: Palatine Processing and Distribution Center (PDC),
                         (Palatine, IL); Morgan PDC, (New York, NY); North Texas PDC, (Coppell, TX); and
                         Detroit CCC also known as Rosa Parks, (Detroit, MI); and the sites have roughly 4.4
                         million total square feet.18 The square footage estimated to be utilized for call



                 16
                    Funds that could be used more efficiently by implementing recommended actions.
                 17
                    Management stated the current contract price is estimated to be $67.1 million based on newly negotiated rates for
                 the period ending January 31, 2011. However, we used the historical cost data for the average contract costs from
                 FYs 2006 through 2009 because management also stated that the price could vary depending on call volume.
                 18
                    The four proposed postal sites and total square footage for each site is: Palatine – 682,874 sq. ft.; Morgan –
                 2,023,632 sq. ft.; North Texas – 629,249 sq. ft.; and Detroit PDC – 1,042,373 sq. ft.



                                                                                       11
U.S. Postal Service’s Use of Employees in                                                                  HR-AR-10-002
 Rehabilitation Status


    centers at the four facilities is 57,868 19; utility and custodial costs is assumed based
    on this square footage.

   The technical support service for specialized call types is estimated to cost
    $2,223,790 from February 1, 2010, through January 31, 2011. A 2 percent
    escalation factor was used to calculate the technical support services costs from
    calendar years 2011 through 2020.

   The “Total” row shows the “Change in Call Center Contract Value” minus “Training
    Cost and Infrastructure”.

   The discounted total is the total dollar amount for a given year stated in terms of
    present dollars. The “Discounted Total” is calculated by dividing the “Total” by 1 plus
    the 7 percent discount rate to the time period.

   “Present Value” equals the sum of the values within the “Discounted Total” row.

We estimated the Postal Service can save $349,043,074. If the Postal Service used the
last two 1-year option periods of the contract to establish the infrastructure and train 893
rehabilitation employees, the cost savings would start in 2013 when the Postal Service
phases out the contract. 20




19
   Estimated square footage for in-sourced call centers at the proposed postal facilities is: Palatine – 10,684 sq. ft.;
Morgan – 21,000 sq. ft.; North Texas - 19,184 sq. ft.; and Detroit PDC – 7,000 sq. ft.
20
   The cost savings do not provide for an offset of human resources costs as our calculations assume the use of
current Postal Service employees to staff call centers.



                                                            12
U.S. Postal Service’s Use of Employees in                   HR-AR-10-002
 Rehabilitation Status



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                            13
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            14
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            15
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            16
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            17
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            18
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            19
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            20
U.S. Postal Service’s Use of Employees in        HR-AR-10-002
 Rehabilitation Status




                                            21
